HHS/OIG, Audit - "Review of Multiple Procedures Performed in the Same Operative Session in Ambulatory Surgical Centers," (A-07-03-02666)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Multiple Procedures Performed in the Same Operative Session
in Ambulatory Surgical Centers," (A-07-03-02666)
January 21, 2003
Complete Text of Report is available in PDF format
(670 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our analysis was to evaluate the effectiveness of HGSAdministrator's
(HGSA) claims processing system in identifying payment reductions for multiple
ambulatory surgical center procedures for calendar years 1997 through 2001.
Regulations require that when multiple services are provided in the same operative
session, the highest paying procedure is reimbursable at the full payment rate
while the other procedures are reimbursable at one-half the normal payment rate.
Our analysis showed that HGSAs system failed to identify such instances, which
resulted in provider overpayments for calendar years 1997 through 2001 of approximately
$1,169, $6,037, $13,635, $10,053 and  $4,942 ($35,836), respectively.
Included in the identified overpayments are approximately $7,178 in beneficiary
overpayments for coinsurance.  Most of the overpayments occurred because
the carriers processing system did not identify multiple procedures performed
during the same session when submitted on separate claims.